APPENDIX

1a
APPENDIX A

United States Court of
Appeals for the Fifth Circuit
————
No. 20-50203
————
UNITED STATES OF AMERICA,
Plaintiff—Appellee,
versus
JUSTIN HAGGERTY,
Defendant—Appellant.
————
Appeal from the United States District Court for the
Western District of Texas
USDC No. 3:10-CR-630-1
————
Decided: April 22, 2020
————
Before Haynes, Higginson, and Oldham, Circuit
Judges. Stephen A. Higginson, Circuit Judge:
After a stipulated-facts bench trial, Appellant Justin
Haggerty was convicted of malicious injury of property
located on “Indian country” in violation of 18 U.S.C. §§
1152 and 1363. He was sentenced to 12 months and
one day in prison, followed by three years of supervised
release. He appeals his conviction and sentence. We
AFFIRM.

2a
I. BACKGROUND
According to the stipulated facts, on Columbus Day
in 2017, Haggerty poured red paint on a statue of
Nestora Piarote, an Indigenous woman, and placed a
wooden cross in front of it. The statue was located in
El Paso County, Texas, on land reserved to the Yselta
Del Sur Indian Tribe (also known as the Tigua Indian
Tribe). The tribe erected the statue to honor the
women of their tribe and had unveiled it just three
months earlier. It cost $92,000. 1 Law enforcement
arrested Haggerty after linking him to the purchase of
the wood and paint used in the crime. In addition, in
the months preceding the crime, Haggerty had
reposted or liked social media posts: (1) expressing
concern that a statue of Christopher Columbus would
be removed from Columbus Circle in New York City;
(2) urging Catholics to unite to defend Columbus Day
from being replaced by a “pagan” Indigenous Peoples’
Day; and (3) stating that Catholic history was being
erased. 2
Although the factual stipulation described Haggerty
as physically appearing to be a “white male” based on
surveillance footage, neither the stipulation nor the
indictment described whether Haggerty was Indian or
non-Indian.
After being arrested and indicted under 18 U.S.C. §§
1152 and 1363, Haggerty pleaded not guilty and
moved to dismiss the indictment on the ground that §
1 According to the Presentence Investigation Report (“PSR”), it
cost the tribe $1,800 to repair the statue after it was damaged by
Haggerty.
2 As Haggerty acknowledged at sentencing, many in the Tigua
Indian Tribe are practicing Catholics.

3a
1363 is unconstitutionally vague. The district court
denied his motion and Haggerty waived a jury trial
with the government’s consent and district court’s
approval. At the commencement of the bench trial, the
district court admitted the above-described and
agreed-upon stipulation of facts, and both the
Government and Haggerty closed their cases without
presenting additional evidence or argument.
Based on the factual stipulation, the district court
convicted Haggerty. In calculating the Guidelines
range for purposes of sentencing, the court applied an
enhancement pursuant to U.S.S.G. § 2B1.5 because
the offense involved damage to a cultural heritage
resource: the statue. Relevant here, the court
increased Haggerty’s offense level by six because it
valued the statue at $92,000. See U.S.S.G. §§
2B1.5(b)(1)(B), 2B1.1(b)(1). Haggerty’s total offense
level was 13, yielding a Guidelines range of 12 to 18
months imprisonment. The court sentenced Haggerty
to the low end of the range, 12 months and one day in
prison, followed by three years of supervised release.
Haggerty filed a timely notice of appeal.
In his appeal, Haggerty raises two issues.
First, Haggerty argues that because 18 U.S.C. §
1152 does not extend to offenses committed by Indian
defendants against Indian victims, the Indian/nonIndian statuses of both the defendant and victim are
essential elements of any offense prosecuted under §
1152 and therefore must be proven by the
Government. Because the Government did not put
forth sufficient evidence proving that Haggerty is a
non-Indian, he argues there is insufficient evidence
supporting his conviction. 3
3

Neither side disputes that the victims in this case are Indian.

4a
Second, Haggerty argues the district court erred at
sentencing by incorrectly applying U.S.S.G. § 2B1.5.
He claims the court should have used the repair cost
of $1,800 as the “value” of the statue for purposes of
applying the enhancement, rather than its $92,000
purchase price. We take each issue in turn.
II. INDIAN/NON-INDIAN STATUS UNDER 18
U.S.C. § 1152
A. Standard of Review
Both Haggerty and the Government agree that
Haggerty has pre- served a general sufficiency-of-theevidence challenge by pleading not guilty in advance
of his bench trial, citing the rule first stated in Hall v.
United States, 286 F.2d 676 (5th Cir. 1960). There, we
held that when a defendant pleads not guilty before a
bench trial, “[t]he plea of not guilty asks the court for
a judgment of acquittal, and a motion to the same end
is not necessary.” Id. at 677; accord United States v.
Rosas-Fuentes, 970 F.2d 1379, 1381 (5th Cir. 1992);
United States v. Vargas, 673 F. App’x 393, 394 (5th Cir.
2016). The parties thus assert that Haggerty’s
sufficiency-of-the-evidence challenge relating to the
purported lack of proof of his non-Indian status should
be re- viewed de novo.
Regardless, however, of whether Haggerty has
preserved a general sufficiency-of-the-evidence
challenge, there are serious reasons to think that
Haggerty has not preserved the underlying legal
argument that a defendant’s Indian or non-Indian
status is an essential element of any offense
prosecuted pursuant to § 1152. For one, this court’s

5a
precedent strongly suggests that even when a
defendant preserves a general challenge to the
sufficiency of the evidence, he must still independently
preserve the legal “subissue” of whether an offense
contains an additional element that has yet to be
recognized in this circuit. See United States v. Brace,
145 F.3d 247, 255-58, 258 n.2 (5th Cir. 1998) (en
banc). 4
In addition, an indictment that fails to include all of
the essential elements of the charged offense is
defective and can be dismissed upon a defendant’s
motion for “failure to state an offense.” Fed. R. Crim.
P. 12(b)(3)(B)(v); accord United States v. Qazi, 975
F.3d 989, 993 (9th Cir. 2020) (citing 5 Wayne R.
4 In Brace, the defendant filed a general motion for acquittal in
the district court and argued on appeal that the government
failed to prove that he was “predisposed” to commit money
laundering, as was its burden to defeat his entrapment defense.
Brace, 145 F.3d at 255-58, 258 n.2. At issue was whether the
defendant had preserved, solely via his general motion for
acquittal, the legal argument that the government had to prove
“positional” as well as “dispositional” predisposition. Id. Whether
a defendant’s “predisposition” to commit the crime, for purposes
of defeating an entrapment defense, contained a “positional”
element was an open question in this circuit, and the defendant
in Brace never specifically articulated that “new” legal theory to
the district court. Id. at 256. This court thus held that while “[the
defendant’s] sufficiency-of-the-evidence issue

was preserved by his general motions for judgment of acquittal
. . . the factual and legal subissue of whether [the defendant] was
in the position to commit the crime . . . was never raised, and,
hence not preserved.” Id. at 258 n.2 (emphasis removed and
added). Thus, the court in Brace reviewed the record, de novo, to
determine if the government had presented sufficient evidence of
the defendant’s predisposition to commit money laundering, but
only as that element was understood to exist “under existing
relevant precedent.” Id. at 261.

6a
LaFave et al., Criminal Procedure § 19.3(a)-(b) (4th ed.
2015)). Absent good cause, such a motion must be
made before trial if the basis for the motion is
reasonably available and can be determined without a
trial on the merits. Fed. R. Crim. P. 12(b)(3), (4)(c)(3).
Here, Haggerty moved before trial to dismiss the
Government’s indictment on the ground that § 1363 is
unconstitutional. But he chose not to attack the
indictment for failure to state an offense, even though
it was silent as to Haggerty’s Indian or non-Indian
status, and even though Haggerty’s argument that his
non-Indian status is an essential element of the
offense was both “reasonably available” and “can be
determined without a trial on the merits.”
Instead, Haggerty waited until his appeal—after
jeopardy had attached, and after he successfully
argued for and received acceptance of re- sponsibility
credit because he sought a bench trial to “preserve
issues that do not relate to factual guilt”—to make that
same underlying legal argument for the first time.
Thus, even though Haggerty does not purport to attack
the sufficiency of the indictment on appeal, there is a
serious question as to whether his failure to assert his
underlying legal argument that his non-Indian status
is an essential element precludes him from
repackaging that argument into a sufficiency-of-theevidence challenge on appeal.
At bottom, we are skeptical that we can apply
anything but plain error review to a legal argument
that is being made for the first time on appeal,
especially when Haggerty passed on an available
opportunity to make that same argument to the
district court. See Montano v. Texas, 867 F.3d 540, 546
(5th Cir. 2017) (“[A] court of appeals sits as a court of
review, not of first view.” (citation omitted)); LeMaire
v. La. Dept. of Transp. & Dev., 480 F.3d 383, 387 (5th

7a
Cir. 2007) (“[A]rguments not raised before the district
court are waived and cannot be raised for the first time
on appeal.”). Nevertheless, we pretermit a full
discussion of the appropriate standard of review
because we conclude that Haggerty’s argument about
Indian/non-Indian status fails even under de novo
review, for the reasons we now explain. See United
States v. Kieffer, 991 F.3d 630, 635 & n.4 (5th Cir.
2021).
B. Discussion
In relevant part, 18 U.S.C. § 1363 states that
“[w]hoever, within the special maritime and territorial
jurisdiction of the United States, willfully and
maliciously destroys or injures any structure,
conveyance, or other real or personal property” shall
be liable. 18 U.S.C. § 1363 (emphasis added). Section
1363 is one of many “federal enclave laws” where, by
definition, “the situs of the offense is an element of the
crime,” United States v. Begay, 42 F.3d 486, 498 (9th
Cir. 1994). See United States v. Markiewicz, 978 F.2d
786, 797 (2d. Cir. 1992) (cataloging some of the various
federal enclave laws, including § 1363). Thus, a
defendant is liable under § 1363 when he (1) willfully
and maliciously destroys property (2) while located
“within the special maritime and territorial
jurisdiction of the United States.” The former
requirement is the “substantive element” of the
offense, while the latter is the “jurisdictional element.”
See Torres v. Lynch, 136 S. Ct. 1619, 1624-25, 1630-33
(2016) (“[T]he substantive elements of a federal
statute describe the evil Congress seeks to prevent; the
jurisdictional element connects the law to one of
Congress’s enumerated powers, thus establishing
legislative authority.”); see also United States v.
Cowboy, 694 F.2d 1228, 1234 (10th Cir. 1982)
(“[F]ederal enclave laws . . . are criminal statutes

8a
enacted by Congress under its admiralty, maritime,
and property powers, governing enclaves such as
national parks.”). “Both kinds of elements must be
proved to [the factfinder] beyond a reasonable doubt.”
Torres, 136 S. Ct. at 1630. 5
18 U.S.C. § 1152, known variously as the Indian
Country Crimes Act or the General Crimes Act,
“extends federal enclave law to non-Indian offenses on
Indian reservations.” 6 Oliphant v. Suquamish Indian
Tribe, 435
U.S. 191, 208 (1978), superseded by statute on other
grounds as recognized in United States v. Lara, 541
U.S. 193, 205-07 (2004). Section 1152 states in full:
5 Proving (or failing to prove) a “jurisdictional element” of a
federal offense is distinct from a district court’s subject-matter
jurisdiction. See In re Sealed Case, 936 F.3d 582, 594-95 (D.C. Cir.
2019) (discussing the difference between jurisdictional elements
and the subject-matter jurisdiction of federal district courts); see
also United States v. Reasor, 418 F.3d 466, 469 (5th Cir. 2005)
(“[A]n element can be jurisdictional in nature without affecting
the jurisdiction of the court to adjudicate the case.”). Rather,
subject-matter jurisdiction is “straightforward in the criminal
context.” United States v. Scruggs, 714 F.3d 258, 262 (5th Cir.
2013). “[A]n indictment need only charge a defendant with an
offense against the United States in language similar to that used
by the relevant statute. That is the extent of the jurisdictional
analysis ” Id. (internal quotation marks and citation omitted);
see also Hugi v. United States, 164 F.3d 378, 380 (7th Cir. 1999)
(“Subject-matter jurisdiction in every federal criminal
prosecution comes from 18 U.S.C. § 3231 That’s the beginning
and the end of the ‘jurisdictional’ inquiry. Lawyers and judges
sometimes refer to the interstate-commerce element that appears
in many federal crimes as the ‘jurisdictional element,’ but this is
a colloquialism—or perhaps a demonstration that the word
‘jurisdiction’ has so many different uses that confusion ensues.”).
6 See United States v. Prentiss, 256 F.3d 971, 974 n.1 (10th Cir.
2001) (en banc); Felix Cohen, Cohen’s Handbook of Federal
Indian Law § 9.02, LEXIS (updated June 2019).

9a
Except as otherwise expressly provided by
law, the general laws of the United States as
to the punishment of offenses committed in
any place within the sole and exclusive
jurisdiction of the United States, except the
District of Columbia, shall extend to the
Indian country.
This section shall not extend to offenses
committed by one Indian against the person
or property of another Indian, nor to any
Indian committing any offense in the Indian
country who has been punished by the local
law of the tribe, or to any case where, by
treaty stipulations, the exclusive jurisdiction
over such offenses is or may be secured to the
Indian tribes respectively.
18 U.S.C. § 1152 (emphasis added).
In its first clause, § 1152 extends the jurisdictional
situs element of federal enclave laws to encompass
Indian country. But, in its second clause, it carves out
three scenarios that would otherwise fall under the
umbrella of the first clause. Section 1152 “shall not
extend” to (1) offenses committed by an Indian
defendant against an Indian victim (i.e., “intra-Indian”
offenses); (2) offenses committed by an Indian who has
already been punished by the local law of the tribe; and
(3) cases where exclusive jurisdiction is secured to an
Indian tribe via treaty. Id. 7
7 In an 1881 decision, the Supreme Court held that state courts
have exclusive jurisdiction over the prosecution of crimes
committed within Indian country by a non- Indian defendant
against a non-Indian victim. United States v. McBratney, 104 U.S.
621, 621-24 (1881); accord New York ex rel. Ray v. Martin, 326
U.S. 496, 497-99 (1946) (affirming and applying McBratney). The
McBratney rule is a “judicially-created exception” that did not
turn on the language of § 1152 or its predecessor statutes or

10a
The question presented here—an issue of first
impression in this circuit—is, when the victim is
Indian (both charged and also proven), whether the
intra-Indian carve-out in § 1152 operates to make the
non-Indian status of the defendant an “essential
element” of any offense prosecuted via § 1152, or
whether the defendant’s Indian status is instead an
affirmative defense that must be asserted as a defense
to prosecution. 8
A circuit split exists on this issue. In United States
v. Hester, the Ninth Circuit concluded that a
defendant’s Indian/non-Indian status is not an
essential element of an offense prosecuted via § 1152.
719 F.2d 1041, 1043 (9th Cir. 1983). Several years
treaties; instead, the Court relied “on the inherent jurisdiction
exercised by states over Indian lands within their borders as a
consequence of their admission to the Union without an express
disclaimer of jurisdiction.” Robert N. Clinton, Criminal
Jurisdiction Over Indian Lands: A Journey Through a
Jurisdictional Maze, 18 ARIZ. L. REV. 503, 524-25 (1976). As a
practical matter, the McBratney rule combined with the intraIndian exception of § 1152 will often determine which sovereign
(federal, state, or tribal) may prosecute criminal offenses
occurring in Indian country, turning on the respective
Indian/non-Indian statuses of the defendant and victim. See
United States v. Bruce, 394 F.3d 1215, 1218-22 (9th Cir. 2005)
(providing an overview of criminal jurisdiction in Indian country).
But while the McBratney rule may have the effect of limiting the
practical scope of § 1152 (the text of which does not foreclose the
federal prosecution of purely non-Indian offenses in Indian
country), it does not bear on our interpretation of the text of §
1152 as a matter of statutory construction.
8 As will be explained below, an argument can be made that the
nature of a victim’s Indian/non-Indian status under § 1152 should
be treated the same as the defendant’s status as a matter of
statutory construction. But because only the defendant’s status is
at issue here, we do not examine whether there are reasons that
might lead to treating defendant and victim status differently.

11a
later, a divided en banc panel of the Tenth Circuit
reached the opposite conclusion. United States v.
Prentiss, 256 F.3d 971, 980 (10th Cir. 2001) (en banc),
overruled on other grounds as recognized in United
States v. Sinks, 473 F.3d 1315, 1317 (10th Cir. 2007). 9
The key practical difference created by the split
concerns who must raise and prove, and with what
convincing force, the issue of Indian/non- Indian
status. The Ninth Circuit reasoned that, when the
victim is Indian, a defendant’s Indian status is an
affirmative defense for which the defendant bears the
burden of pleading and production. See Hester, 719
F.2d at 1043. Under that view, the Government need
not allege the defendant’s non- Indian status, id., but
should the defendant “properly raise[] the issue of his
Indian status,” the court in Hester recognized that “the
ultimate burden of proof remains, of course, upon the
Government.” Id. By contrast, the Tenth Circuit held
that the entire burden is on the Government: it must
allege the defendant’s (and victim’s) Indian/nonIndian status and bear the burden of production and
persuasion at trial. Prentiss, 256 F.3d at 975, 980. 10
9 While Hester only considered whether a defendant’s nonIndian status was an essential element, 719 F.2d at 1042-43,
Prentiss primarily focused on the nature of a victim’s Indian/nonIndian status (concluding both are essential elements), 256 F.3d
at 975-76. Notably again, however, in both cases the issue was
presented as a challenge to the sufficiency of the indictment, not
the sufficiency of the evidence presented at trial. Hester, 719 F.2d
at 1042; Prentiss, 256 F.3d at 973.
10 As the Tenth Circuit explains:
An affirmative defense may impose various burdens on the
defendant: (1) the burden of pleading (“the burden of
introducing [a] defense for consideration”), Paul H. Robinson,
1 Criminal Law Defenses § 3(a), at 12 (1984); (2) the burden
of production (the burden of “adduc [ing] sufficient evidence
to . . . support . . . the presence of [a] defense”), id. § 3(b), at
15; or (3) the burden of persuasion (the burden of “convinc

12a
We agree with both circuits in that, either way, the
Government retains the ultimate burden of persuasion
because a defendant’s Indian/non- Indian status, via
the operation of § 1152, affects the applicable scope of
the relevant federal enclave law’s jurisdictional situs
element. See Smith v. United States, 568 U.S. 106, 11011 (2013); Torres, 136 S. Ct. at 1630. But to determine
whether Indian status is an affirmative defense that
must first be raised by a defendant—i.e., the
defendant bears the burden of pleading and
production—we begin by considering the text of § 1152
and principles of statutory construction. See United
States v. Steele, 147 F.3d 1316, 1320 (11th Cir. 1998)
(describing that Congress “defines crimes and defenses
in the United States Code” and that, subject to
constitutional constraints, “it has the authority to
specify whether a given factor must be pleaded by the
government in the indictment as an element of an
offense, or affirmatively raised by the defense as part
of its case”).
It is a “well-established rule of criminal statutory
construction that an exception set forth in a distinct
clause or provision should be construed as an
affirmative defense and not as an essential element of
the crime.” United States v. Santos-Riviera, 183 F.3d
367, 370-71 (5th Cir. 1999). The Supreme Court
articulated this rule in McKelvey v. United States,
where it stated:
By repeated decisions it has come to be a
settled rule in this jurisdiction that an
indictment or other pleading founded on a
general provision defining the elements of
[ing] the tribunal of the existence of the facts” supporting the
defense). Id. § 5(a), at 41.
Prentiss, 256 F.3d at 975 n.2 (alterations in original).

13a
an offense, or of a right conferred, need not
negative the matter of an exception made by
a proviso or other distinct clause, whether in
the same section or elsewhere, and that it is
incumbent on one who relies on such an
exception to set it up and establish it.
260 U.S. 353, 357 (1922).
Section 1152 appears to be the exact type of statute
contemplated by the Supreme Court. It has two
distinct clauses, the first of which generally extends
the scope of all federal enclave laws to include Indian
country. The second clause, set out from the first,
describes three exceptions to the general definition set
forth in the first clause.
To counter the applicability of the McKelvey rule to
§ 1152, Haggerty draws attention to older precedent
and a separate principle relating to exceptions in
criminal statutes. In United States v. Cook, the
Supreme Court described that “[w]here a statute
defining an offence contains an exception . . . which is
so incorporated with the language defining the offence
that the ingredients of the offence cannot be accurately
and clearly described if the exception is omitted” then
an indictment must allege that “the accused is not
within the exception.” 84 U.S. (17 Wall.) 168, 173-74
(1872). Citing Cook, Haggerty argues that if we omit
the intra-Indian exception the elements of § 1152
cannot be “accurately and clearly described.”
But Haggerty’s argument only works if its
conclusion is also its premise: that because the intraIndian exception is an essential element of the offense,
the offense cannot be described if the exception is
omitted. Such reasoning is circular. See Prentiss, 256
F.3d at 988 (Baldock, J., dissenting) (“The [majority]
claims that ‘the ingredients of the offence cannot be

14a
accurately and clearly described if the [interracial]
exception is omitted.’ But that simply begs the
question of what ‘ingredients’ constitute the offense.”
(alteration in original)). By contrast, here is one way
to describe Haggerty’s crime of conviction under § 1152
and § 1363 without mentioning the intra- Indian
exception: “Whoever maliciously destroys property in
Indian country is guilty of an offense.” There is nothing
inaccurate or unclear about that description, as it
would be within Congress’s authority to define such an
offense without providing an intra-Indian exception.
See, e.g., 18 U.S.C. § 1153(a) (expressly permitting the
federal prosecution of certain intra-Indian offenses in
Indian country). Cook thus is not determinative. See
United States v. McArthur, 108 F.3d 1350, 1353 (11th
Cir. 1997) (“[W]here one can omit the exception from
the statute without doing violence to the definition of
the offense, the exception is more likely an affirmative
defense.”). 11
Importantly, Haggerty has not convincingly
explained why we could treat the intra-Indian
exception as an essential element, but not the other
two exceptions contained in the second clause of §
1152. In our view, the three exceptions must be treated
similarly. If, as Haggerty claims, the exceptions are
essential elements, then the Government must also
allege and affirmatively prove—every time it
prosecutes a crime under § 1152—that the defendant
has not already been punished by the local law of the
11 The McKelvey rule may have practical force in the instant
circumstance where, as noted by the court in Hester, it “is far
more manageable for the defendant to shoulder the burden of
producing evidence that he is a member of a federally recognized
tribe than it is for the Government to produce evidence that he is
not a member of any one of the hundreds of such tribes,” 719 F.2d
at 1043.

15a
tribe and that there is no treaty stipulation that grants
exclusive jurisdiction to the respective tribe.
While the McKelvey rule requires that we treat the
intra-Indian exception as exactly that—an exception—
Haggerty argues that we are foreclosed from doing so
by other Supreme Court precedent. Haggerty focuses
on
two
nineteenth-century
cases
involving
prosecutions under a predecessor statute to § 1152 12
(which also contained the intra-Indian exception):
United States v. Lucas, 163 U.S. 612 (1896) and Smith
v. United States, 151 U.S. 50 (1894). In both cases,
however, there was no dispute that the defendant was
Indian. It was the victim’s status as a non-Indian that
was at issue. Although we confront the opposite
scenario here (where the defendant’s status is being
disputed on appeal), we agree with Haggerty insofar
as the two scenarios appear to be corollaries as a
matter of pure statutory construction. In other words,
if the Supreme Court had held—as a matter of
statutory interpretation—that victim Indian/nonIndian status is an essential element under § 1152,
that would strongly imply that defendant Indian/nonIndian status is also an essential element. However,
we disagree that the Supreme Court held as much in
either case.
Lucas concerned the prosecution of an Indian
defendant for an alleged murder committed in Indian
country. 163 U.S. at 614-15. The Government had
alleged in the indictment that the victim “was a negro,
and not an Indian” and then proceeded at trial to
introduce evidence that the victim was not a tribal
12 For a discussion of the statutes and treaties preceding § 1152,
see Prentiss, 256 F.3d at 985 n.13 (Baldock, J., dissenting).

16a
member. Id. at 616-17. The defense objected to the
evidence purporting to show the victim’s non-Indian
status. Id. at 617. Despite the introduction of such
disputed evidence, the district court instructed the
jury that there was a legal presumption that the victim
was non-Indian given the concession that he was “a
negro.” Id. at 615. The Court concluded this
presumption and instruction were error, and
explained that “[t]he burden of proof was on the
government to sustain the jurisdiction of the court by
evidence as to the status of the deceased [i.e., the
victim], and the question should have gone to the jury
as one of fact, and not of presumption.” Id. at 617-18;
see also id. at 615 (“[T]he averment in the indictment
in the present case that [the victim] was a negro, and
not an Indian, was the averment of a jurisdictional
fact, which it was necessary for the prosecution to
sustain by competent evidence.”). 13
As explained above, we agree that the Government
retains the ultimate burden of proof when the intraIndian exception is at issue. Were there any doubt on
13 That the court in Lucas tied the victim’s non-Indian status to
sustaining “the jurisdiction of the court” does not mean the
question presented here is one of subject- matter jurisdiction. See
supra note 5. In more recent history, the Supreme Court has
made an effort to discipline the use of jurisdictional language,
such that we are reluctant to draw any wide-sweeping
conclusions from the Court’s use of jurisdictional language over a
century ago, especially in the face of contrary modern doctrine.
See Arbaugh v. Y&H Corp., 546 U.S. 500, 510 (2006)
(“Jurisdiction . . . is a word of many, too many, meanings. This
Court, no less than other courts, has sometimes been profligate
in its use of the term.” (internal quotation marks and citation
omitted)); see also United States v. Cotton, 535 U.S. 625, 629-32
(2002) (discussing the historical understanding of criminal
subject-matter jurisdiction in relation to present-day doctrine).

17a
this front, Lucas would help resolve it. But Lucas does
not resolve the question of which party bears the
initial burdens of pleading and production on the
intra-Indian exception. It is true that the Government
alleged that the victim was non-Indian and introduced
evidence on the subject. But Lucas is silent as to
whether the Government was required to do so; all we
know is that the Government raised the issue and the
defense contested it, creating a fact dispute as to the
applicability of the exception. In short, nothing in
Lucas is inconsistent with our decision to treat the
intra- Indian exception as an affirmative defense that
must be asserted by the defendant, with the
Government retaining the ultimate burden of proof.
The same is true of Smith. Smith also concerned the
prosecution of an Indian defendant for the alleged
murder of a victim whom, in another similarity to
Lucas, the Government alleged in the indictment to be
“a white man, and not an Indian.” Id. at 50, 53-55. At
trial, the defense called multiple witnesses in an effort
to prove that the victim, like the defendant, was
Indian. Id. at 54. The Supreme Court reversed the
defendant’s
conviction,
concluding
that
the
Government had offered no relevant evidence tending
to prove the victim’s non-Indian status responsive to
contrary evidence presented by the defense. Id. at 5556. The Court wrote: “That [the victim] was a white
man, and not an Indian, was a fact which the
government was bound to establish, and, if it failed to
introduce any evidence upon that point, defendant was
entitled to an instruction to that effect.” Id. at 55. As
with Lucas, the Supreme Court described that the
ultimate burden of proof with respect to the victim’s
non-Indian status remained with the Government.
But, again like Lucas, the Court in Smith did not

18a
describe which party had the initial burden to raise the
issue of the victim’s Indian/non-Indian status.
In sum, with respect to crimes prosecuted via § 1152,
settled and reconcilable Supreme Court doctrine, as
well as principles of statutory construction,
demonstrate that, when the victim is Indian, the
defendant’s status as Indian is an affirmative defense
for which the defendant bears the burden of pleading
and production, with the ultimate burden of proof
remaining with the Government. Therefore, because
Haggerty did not raise the issue of Indian status at
trial as an affirmative defense, the Government met
its burden to prove the jurisdictional element of § 1363
(as extended by § 1152) by introducing evidence
sufficient to establish that the offense occurred in
Indian country.
III. THE “VALUE” OF A CULTURAL HERITAGE
RESOURCE UNDER U.S.S.G § 2B1.5
A. Standard of Review
Haggerty did object at sentencing to the district
court’s application of
U.S.S.G. § 2B1.5. Therefore, we review the district
court’s application of the Guidelines de novo, and
review findings of fact for clear error. United States v.
Valdez, 726 F.3d 684, 692 (5th Cir. 2013). “There is no
clear error if the district court’s finding is plausible in
light of the record as a whole.” Id. (citation omitted).
B. Discussion
U.S.S.G. § 2B1.1 is the applicable guideline for
Haggerty’s conviction under 18 U.S.C. § 1363. U.S.S.G.
§ 2B1.1 cmt. statutory provisions (2018). Section
2B1.1(c)(4) instructs the district court to cross
reference and apply § 2B1.5 “[i]f the offense involved a
cultural heritage resource.” Both parties agree § 2B1.5

19a
is the applicable Guideline and that the damaged
statue is the relevant cultural resource.
Section 2B1.5 applies to the “theft of, damage to, or
destruction of, cultural heritage resources.” It provides
a base offense level of 8 and instructs that the offense
level should be increased “[i]f the value of the cultural
heritage resource” exceeds certain threshold amounts
set forth in the table contained in § 2B1.1(b)(1).
U.S.S.G. §§ 2B1.5(a)-(b)(1) (2018) (emphasis added).
The “value of the resource” is defined in Application
Note 2(A), which states:
Value of the Resource Under Subsection
(b)(1).—This application note applies to the
determination of the value of the resource under
subsection (b)(1).
(A) General
Rule.—For
purposes
of
subsection (b)(1), the value of the resource
shall include, as applicable to the
particular resource involved, the following:
(i) The archaeological value.
(Archaeological value shall be
included in the case of any
resource that is an archaeological
resource.)
(ii) The commercial value.
(iii) The cost of restoration and
repair.
U.S.S.G. § 2B1.5 cmt. n.2.
The terms “archaeological value,” “commercial
value,” and “cost of restoration and repair” are defined
in Application Note 2(C). There is no dispute that
“archaeological value” is irrelevant here, or that the
definition of “cost of restoration and repair” would

20a
include the $1,800 repair cost to the statue. Nor that
the definition of “commercial value” is “the fair market
value of the resource at the time of the offense.”
U.S.S.G. § 2B1.5 cmt. n.2(C)(ii). Additionally,
Application Note 2(B) states that “[f]or purposes of
subsection (b)(1), the court need only make a
reasonable estimate of the value of the resource based
on available information.” U.S.S.G § 2B1.5 cmt. n.2(B).
Here, the probation officer who completed the
Presentence Investigation Report (“PSR”) calculated
the value of the statue, for purposes of applying §
2B1.5, based on its “commercial value,” which she
calculated to be the $92,000 purchase price of the
statue. The district court adopted the PSR without
change.
Haggerty argues the district court made two errors
in applying § 2B1.5. First, without further elaboration,
he argues that the statue’s $92,000 “purchase price” is
not evidence of its “commercial value” for purposes of
§ 2B1.5. Second, assuming arguendo that the
commercial value of the statue totals $92,000, he
argues that “[a]s a matter of law, where—as here—a
non-archaeological ‘resource’ is restored to its prior
physical condition, it is error to use the total value of
that resource in calculating the offense level under
USSG § 2B1.5; rather, the court should use the cost of
restoration incurred in bringing the resource back to
its prior condition.”
Haggerty’s first argument plainly fails. The PSR
describes that the tribe purchased the statue on
December 2, 2016, roughly ten months before the
offense. There is no indication that the tribe received
a below-market price. Thus, on the information
available to it, the district court did not commit clear
error in concluding that the statue’s “purchase price”
provides a reasonable estimate of its “fair market

21a
value” at the time of the offense (i.e., its “commercial
value”).
With respect to his second argument, Haggerty cites
no law in support of his asserted principle that the
restoration cost should control. 14 Regardless, his
argument is unsupported by the text. The Guidelines
state only that the “value” of the cultural heritage
resource “shall include, as applicable,” the three
different valuations. U.S.S.G. § 2B1.5 cmt. n.2(A).
There is nothing that suggests that “the cost of
restoration or repair” takes precedence over and
obviates the other two valuations.
While the text of § 2B1.5 forecloses Haggerty’s
argument, we also note that the Sentencing
Commission’s explanation for why it promulgated §
2B1.5 further cuts against Haggerty’s view. See
generally U.S.S.G. supp. to app. C, amend. 638 at 245,
253-56 (Nov. 1, 2002). 15 Notably, the Commission
makes it clear that the harm that it is concerned about
when it comes to the damage and destruction of
cultural heritage resources is not purely (or even
primarily) the resource’s physical condition or
monetary value. Rather, the purpose of § 2B1.5 is to
provide “flexibility” to appropriately punish offenders
for both the tangible and intangible harm caused by
their damage of cultural heritage resources. See id. at
253-54. As the Commission explains:
This amendment reflects the Commission’s
conclusion that the existing sentencing
guidelines for economic and property
destruction crimes are inadequate to punish
14 In fairness, there appears to be little case law interpreting §
2B1.5.
15Accessible at: https://www.ussc.gov/sites/default/files/pdf/gui
delines- manual/2002/manual/APPCSUPP.pdf.

22a
in an appropriate and proportional way the
variety of federal crimes involving the theft
of, damage to, destruction of, or illicit
trafficking in, cultural heritage resources. . .
. . . Because individuals, communities, and
nations identify
themselves
through
intellectual, emotional, and spiritual
connections to places and objects, the effects
of cultural heritage resource crimes
transcend mere monetary considerations.
Accordingly, this new guideline takes into
account the transcendent and irreplaceable
value of cultural heritage resources and
punishes in a proportionate way the
aggravating conduct associated with
cultural heritage resource crimes.
The new guideline also provides that the
monetary value of the cultural heritage
resource is an important, although not the
sole, factor in determining the appropriate
punishment. The Commission has elected
not to use the concept of “loss,” which is an
integral part of the theft, fraud, and
property destruction guideline at §2B1.1,
because cultural heritage offenses do not
involve the same fungible and compensatory
values embodied in “loss.” Instead, under
this new guideline, value is to be based on
commercial value, archaeological value, and
the cost of restoration and repair.
Id. (emphasis added).
In short, Haggerty’s second argument would have us
rewrite the text of § 2B1.5 in tension with the purpose
behind its promulgation.

23a
IV. CONCLUSION
Haggerty’s conviction and sentence are AFFIRM

24a
Andrew S. Oldham, Circuit Judge, concurring in the
judgment:
I agree that Haggerty’s conviction must be affirmed.
But I respectfully disagree with the majority’s refusal
to review his sufficiency-of-the-evidence claim for
plain error. See ante, at 4–6. Binding en banc
precedent holds that raising sufficiency issues is not
enough to preserve unraised “factual and legal
subissue[s]” like the one Haggerty wants to litigate.
United States v. Brace, 145 F.3d 247, 258 n.2 (5th Cir.
1998) (en banc). I do not understand how we can
dismiss an on-point en banc decision as a mere
“suggest[ion].” Compare ante, at 4–5, with Gahagan v.
U.S. Citizenship & Immigr. Servs., 911 F.3d 298, 302
(5th Cir. 2018) (“Three-judge panels abide by a prior
Fifth Circuit decision until the decision is overruled . .
. by the Fifth Circuit sitting en banc.” (quotation
omitted)). Obviously future panels will be bound by
Brace, even if ours is not.
In the majority’s defense, this is not the first time
we’ve sown confusion in this area. I write separately to
explain how error preservation is supposed to work.
And how badly we’ve misinterpreted the rules over the
last 60 years.
I.
Let’s start with how error preservation is supposed
to work. It’s axiomatic that “a right may be forfeited in
criminal . . . cases by the failure to. . . timely assert[]”
it. Puckett v. United States, 556 U.S. 129, 134 (2009)
(quotation omitted). It’s also well established that the
only way to timely assert a right in a federal criminal
case is to comply with Federal Rule of Criminal
Procedure 51(b). See id. at 135. That Rule provides:

25a
A party may preserve a claim of error by
informing the court— when the court ruling
or order is made or sought—of the action the
party wishes the court to take, or the party’s
objection to the court’s action and the
grounds for that objection.
Thus, a criminal defendant like Haggerty can
preserve a claim of error in two (and only two) ways.
First, he can inform the court “of the action [he] wishes
the court to take” at the time he seeks a ruling. Second,
he can inform the court of his “objection to the court’s
action and the grounds for that objection” at the time
a ruling is made. Those are the options. And whichever
option a defendant chooses, his requested action or
grounds for objection must be specific. See Puckett, 556
U.S. at 134 (explaining that an objector must “give[]
the district court the opportunity to consider and
resolve” his objections); United States v. Kieffer, 991
F.3d 630, 638 (5th Cir. 2021) (Oldham, J., concurring
in the judgment) (“In general, the litigant attempting
to preserve an error must focus the decisionmaker’s
mind on the specific legal problem, so the error (if
there is one) can be corrected.”). Failure to comply with
these constraints “precludes the raising on appeal of
the unpreserved claim” unless the “limited exception”
of plain-error review applies. Puckett, 556 U.S. at 135;
Fed. R. Crim. P. 52(b).
Federal Rule of Criminal Procedure 29 applies this
framework to sufficiency-of-the-evidence challenges.
The Rule permits a defendant to file a “motion [for] . .
. a judgment of acquittal of any offense for which the
evidence is insufficient to sustain a conviction.” Fed.
R. Crim. P. 29(a). A defendant can file such a motion
as soon as “the government closes its evidence” at trial
or as late as “14 days after a guilty verdict or after the
court discharges the jury.” Id. 29(a), (c)(1). But in

26a
keeping with Rule 51, a defendant who fails to file a
Rule 29 motion cannot get de novo review of sufficiency
issues on appeal. See United States v. McDowell, 498
F.3d 308, 312 (5th Cir. 2007). Nor can a defendant get
de novo review by filing a Rule 29 motion that fails to
“specify . . . the particular [evidentiary] basis on which
acquittal is sought.” Ibid.; accord United States v.
Herrera, 313 F.3d 882, 884 (5th Cir. 2002) (en banc)
(per curiam). 1
II.
Given all this, you might wonder how someone like
Haggerty—who concedes he “did not move for
acquittal for insufficient evidence” at trial, Blue Br.
8—could possibly get de novo review of a sufficiency
claim on appeal. The answer lies in a case we decided
60 years ago and that has no basis in the Rules.
A.
That case is Hall v. United States, 286 F.2d 676 (5th
Cir. 1960). The defendant in Hall appealed his federal
conviction for bank fraud on the sole ground of
insufficient evidence. Id. at 677–78. But he hadn’t said
anything about sufficiency to the trial court. So the
Government sensibly asked our court to review the
conviction for plain error. See id. at 677.
We refused. After quoting precedent that
unequivocally held the failure to raise a sufficiency
challenge required plain-error review, see ibid.
(quoting Demos v. United States, 205 F.2d 596, 599
(5th Cir. 1953)), we confined that rule to cases
1For a discussion of a “disturbing countertrend in our
precedent,” see Kieffer, 991 F.3d at 637–41 (Oldham, J.,
concurring in the judgment).

27a
involving jury trials. We then held that in bench trial
cases, pleading not guilty automatically preserves all
sufficiency issues for appeal. Here is the entirety of our
reasoning:
[T]here can be little or no need for a formal
motion for a judgment of acquittal in a
criminal case tried to a court without a jury
upon the defendant’s plea of not guilty. The
plea of not guilty asks the court for a
judgment of acquittal, and a motion to the
same end is not necessary. In such a case,
therefore, we hold that the sufficiency of the
evidence to sustain a conviction should be
reviewed the same as if there had been a
formal motion for judgment of acquittal.
Ibid. (citation omitted).
Hall’s theory has gained some purchase. A leading
treatise calls it “sound.” See 2A Charles Alan Wright
& Peter J. Henning, Federal Practice and Procedure §
469, at 391 (4th ed. 2009). Several of our sister circuits
have adopted it. See, e.g., United States v. Grace, 367
F.3d 29, 34 (1st Cir. 2004) (joining the Sixth, Seventh,
Ninth, and D.C. Circuits in holding that “ a defendant
does not have to make a Rule 29 motion in a bench trial
to preserve the usual standard of review for a
sufficiency of the evidence claim on appeal”). And our
court continues to apply it. See ante, at 4; United States
v. Rosas-Fuentes, 970 F.2d 1379, 1381 (5th Cir. 1992).
B.
We should stop. There are four reasons why.
First, Hall ignores the text of Rule 51. 2 The Supreme
Court has made clear that Rule 51 is the mechanism
2 Much like it does today, the version of Rule 51 in force when
we decided Hall directed a defendant to “make[] known to the

28a
for error preservation in a federal criminal case. See
Puckett, 556 U.S. at 135 (“In federal criminal cases,
Rule 51(b) tells parties how to preserve claims of error
. . . .”). And the preservation mechanism in Hall looks
nothing like the procedure spelled out in Rule 51.
Pleading not guilty obviously doesn’t qualify as an
“objection to the court’s action” or provide “grounds for
that objection.” Fed. R. Crim. P. 51(b). It is instead an
objection to having to stand trial. Nor does pleading
not guilty qualify as informing the court of an “action
the [defendant] wishes the court to take” with the
requisite degree of specificity. Ibid. Even our most
lenient post-Hall preservation precedents recognize
that “not guilty!” falls woefully short of what a
defendant must say to get de novo review. See, e.g.,
United States v. Staggers, 961 F.3d 745, 754 (5th Cir.
2020) (holding a defendant must at least “make[] a
general sufficiency-of-the-evidence challenge” at trial
to obtain de novo sufficiency review on appeal
(emphasis added) (quotation omitted)). If it were
otherwise, plain-error sufficiency review would
completely disappear. Contra United States v.
Delgado, 672 F.3d 320, 330 (5th Cir. 2012) (en banc)
(“The four-prong [plain-error] analysis is applicable to
all forfeited claims of error . . . , including [a] claim that
the evidence [is] insufficient to support [a] . . .
conviction.”).
Second, Hall ignores the foundational preservation
principles that underlie Rule 51. A central reason for
the contemporaneous-objection requirement is that it
“gives the district court the opportunity to consider
and resolve” a defendant’s objections as they arise.
court the action which he desires the court to take or his objection
to the action of the court and the grounds therefor” at “the time
the ruling or order of the court is made or sought.” Fed. R. Crim.
P. 51, 327 U.S. 871, 871–72 (1945).

29a
Puckett, 556 U.S. at 134. That is possible when a
defendant timely raises sufficiency concerns about
evidence that has already been admitted at trial. See
Fed. R. Crim. P. 29(a) (authorizing sufficiency motions
“[a]fter the government closes its evidence”). But it is
obviously impossible when a defendant like Haggerty
says “not guilty!” months before the Government has
offered any evidence at all. How is a district court
supposed to resolve a not-guilty “objection” before the
Government has called its first witness? 3
And why would a defendant lodge a proper objection
under Rule 51 when a simple not-guilty plea suffices?
In fact, why even bother to plead at all? The Federal
Rules say that “[i]f a defendant refuses to enter a
plea[,] . . . the court must enter a plea of not guilty.”
Fed. R. Crim. P. 11(a)(4). So according to Hall, a
defendant can do absolutely nothing and still get de
novo sufficiency review on appeal. That is the opposite
of how error preservation is supposed to work. See
Puckett, 556 U.S. at 134 (“[T]he contemporaneousobjection rule prevents a litigant from sandbagging
the court [by] remaining silent about his objection and
belatedly raising the error only if the case does not
3 Hall’s plead-and-preserve theory is even more absurd when
applied to a defendant who asks the court to conduct a trial on
stipulated facts. See ante, at 2–3. Haggerty’s strategy from the
very beginning was to concede the facts and dispute the law. He
even got credit for accepting responsibility, id. at 6—a sentencing
adjustment that “is not intended to apply to a defendant who puts
the government to its burden of proof at trial by denying the
essential factual elements of guilt,” U.S.S.G. § 3E1.1 cmt. n.2.
Such calculated decision-making is certainly grounds for
forfeiture and probably grounds for waiver. See United States v.
Olano, 507 U.S. 725, 733 (1993) (“Whereas forfeiture is the failure
to make the timely assertion of a right, waiver is the intentional
relinquishment or abandonment of a known right.” (quotation
omitted)).

30a
conclude in his favor.” (quotation omitted)); accord
Kieffer, 991 F.3d at 638 (Oldham, J., concurring in the
judgment).
Third, Hall creates a distinction between sufficiency
problems and other constitutional infirmities that
doesn’t make sense. The upshot of Hall is that
defendants have a much easier time preserving
sufficiency arguments than they do preserving
anything else: ask for a bench trial, plead not guilty,
and you’re set. Hall attempts to justify this distinction
by pointing to the constitutional “duty of the trial court
to direct a verdict of acquittal, regardless of whether a
motion to that effect is made.” 286 F.2d at 677
(quotation omitted); see also Grace, 367 F.3d at 34
(agreeing with Hall because “[t]he Due Process Clause
protects the accused against conviction except upon
proof beyond a reasonable doubt” (quotation omitted)).
But the Supreme Court has “repeatedly cautioned”
against tinkering with the “careful balance” effected
by Rule 51’s preservation requirements and Rule 52’s
plain-error exception on a right-by-right basis. See
Puckett, 556 U.S. at 135–36. Moreover, we have
refused to elevate a defendant’s due process right to
sufficient proof above other constitutional rights in
related contexts. See, e.g., Delgado, 672 F.3d at 331
(observing that “the Constitution does not require that
the sufficiency of the evidence be subject to de novo
review in all cases” and that the Supreme Court’s
plain-error cases “do not . . . allow[] for any exceptions
to the application of the plain-error test for forfeited
[sufficiency] claims”); Parr v. Quarterman, 472 F.3d
245, 252–53 (5th Cir. 2006) (affirming the district
court’s holding that a sufficiency argument was
procedurally barred because the habeas applicant “did
not present th[is] claim[] to the state court on direct
appeal or in state habeas proceedings”).

31a
Fourth, and finally, Hall introduces a distinction
between jury trials and bench trials that doesn’t make
sense. The theory appears to be that in a bench trial
where the court is the factfinder, pleading not guilty
and then filing a motion under Rule 29 essentially asks
the court to repeat the same exercise twice. See Hall,
286 F.2d at 677 (“The plea of not guilty asks the court
for a judgment of acquittal, and a motion to the same
end is not necessary.”). But that reasoning doesn’t hold
up.
For one thing, the premise is wrong. Even in bench
trials, not-guilty pleas and Rule 29 motions serve
different functions and require courts to perform
different tasks. “A plea of not guilty puts all material
elements of the crime charged in play, even the most
obvious facts.” 1A Charles Alan Wright & Andrew D.
Leipold, Federal Practice and Procedure § 173, at 177
(4th ed. 2008). A court that receives such a plea must
therefore hold the Government to its burden of proof
by conducting a trial. See id. at 177 n.5. By contrast, a
Rule 29 motion “challenge[s] the sufficiency of the
evidence” after it is offered at trial. Wright & Henning,
supra, § 466, at 355. A court that receives such a
motion must therefore review the evidence and “enter
. . . judgment” if the Government has failed to make
the necessary showing. Id. § 461, at 320. Entering
judgment on sufficiency grounds is obviously not an
option until after the Government has presented its
case. See supra at 5. So it makes no sense to say that
a pre-evidence plea can double as a post-evidence
acquittal motion. The plea informs the court that the
defendant wants a trial because he hopes the evidence
will emerge in his favor; the motion informs the court
that the defendant wants a judgment because he
thinks the evidence has borne out his plea. Cf. United
States v. Johnson, 741 F. App’x 233, 234 (5th Cir. 2018)

32a
(per curiam) (describing a defendant’s decision to
plead guilty in light of trial evidence that undermined
his defense).
But even if Hall is right about the redundancy of
pleading not guilty and moving for acquittal in a bench
trial, treating jury trials differently is still
problematic. First, not-guilty pleas operate the same
way in bench trials as they do in jury trials. See Wright
& Henning, supra, § 469, at 391. So if “[t]he plea of not
guilty asks the court for a judgment of acquittal” in
one, Hall, 286 F.2d at 677, it also asks the court for a
judgment of acquittal in the other. Second, Rule 51
doesn’t differentiate between bench trials and jury
trials. See Fed. R. Crim. P. 51(b). So our preservation
standards shouldn’t either. See Puckett, 556 U.S. at
135. And third, relaxing the standard for bench trials
diminishes the value of a defendant’s right to trial by
jury. This right is a “fundamental reservation of power
in our constitutional structure” that “is meant to
ensure [the People’s] control in the judiciary.” Blakely
v. Washington, 542 U.S. 296, 305–06 (2004). That is
why courts’ sufficiency- of-the-evidence review is so
deferential. See Jackson v. Virginia, 443 U.S. 307, 319
(1979) (explaining that the sufficiency standard
“impinges upon jury discretion only to the extent
necessary to guarantee the fundamental protection of
due process of law” (quotation omitted)). Yet Hall
incentivizes defendants to surrender the jury-trial
right for the automatic promise of de novo sufficiency
review on appeal from a bench trial.
I would apply Rule 51 as written and review
Haggerty’s forfeited sufficiency claim for plain error.
Hall’s command to the contrary violates Supreme
Court precedent and common sense. Today’s
treatment of the standard of review only further
confuses a deeply confused doctrine.

33a
APPENDIX B

United States District Court
Western District of Texas
El Paso Division

UNITED STATES OF AMERICA

v.

Case Number: EP: 19-CR-00630-KC(1)
USM Number: 72428-019

JUSTIN HAGGERTY
Defendant.

JUDGMENT IN A CRIMINAL CASE

(For Offenses Committed On or After November 1, 1987)

The defendant, JUSTIN HAGGERTY, was represented by
Brock Morgan Benjamin.
The defendant was found guilty by the Court to Count(s)
One of the Indictment on December 17, 2019 after a plea
of not guilty. Accordingly, the defendant is adjudged guilty
of such Count(s), involving the following offense(s):
Title & Section / Nature of Offense
18 U.S.C. 1363 and 1152 – Malicious Injury of Property
Located on Indian Country
Offense Ended
October 8, 2017

Count
One

As pronounced on March 4, 2020, the defendant is
sentenced as provided in pages 2 through 8 of this

34a
Judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.
It is further ordered that the defendant shall notify the
United States Attorney for this district within 30 days of
any change of name, residence, or mailing address until all
fines, restitution, costs, and special assessments imposed
by this Judgment are fully paid. If ordered to pay
restitution, the defendant shall notify the Court and United
States Attorney of any material change in the defendant’s
economic circumstances.
SIGNED this 6th day of March, 2020.

35a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 3 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the
Federal Bureau of Prisons to be imprisoned for a term of
twelve (12) months and one (1) day as to count one.
The Court makes the following recommendations to the
Bureau of Prisons:
That the defendant be incarcerated in a federal facility as
close to Atlanta, Georgia as possible.
The defendant shall surrender for service of sentence on or
before 2:00 PM on May 12, 2020 either at the institution
designated by the Federal Bureau of Prisons or to the
Office of the United States Marshal.
RETURN
I have executed this Judgment as follows:
__________________________________________________________________
__________________________________________________________________
Defendant delivered on_______to____________________________________
at____________________, with a certified copy of this Judgment
United States Marshal
By________________________________________________________________
Deputy Marshal

36a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 4 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on
supervised release for a term of three years.
While on supervised release, the defendant shall comply
with the mandatory, standard and if applicable, the special
and/or additional conditions on the attached pages that
have been adopted by this Court.
MANDATORY CONDITIONS
1. You must not commit another federal, state or local
crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court. The above drug testing
condition is suspended, based on the court's
determination that you pose a low risk of future
substance abuse. (check if applicable) ☐
4. You shall submit to the collection of a DNA sample
from you at the direction of the United States
Probation Office if the collection of such a sample is
authorized pursuant to section 3 of the DNA
Analysis Backlog Elimination Act of 2000 (42
U.S.C. § 14135a).

37a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 5 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

5. You must comply with the requirements of the Sex
Offender Registration and Notification Act (34
U.S.C. § 20901, et seq.) as directed by the probation
officer, the Bureau of Prisons, or any state sex
offender registration agency in which you reside,
work, are a student, or were convicted of a
qualifying offense. (check if applicable) ☐
6. You must participate in an approved program for
domestic violence. (check if applicable) ☐
7. You must make restitution in accordance with 18
U.S.C. §§ 2248, 2259, 2264, 2327, 3663, 3663A, and
3664. (check if applicable) ☒
8. You must pay the assessment imposed in accordance
with 18 U.S.C. § 3013.
9. If this judgment imposes a fine, you must pay in
accordance with the Schedule of Payments sheet of
this judgment.
10. You must notify the court of any material change in
your economic circumstances that might affect your
ability to pay restitution, fines, or special
assessments.

38a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 6 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

STANDARD CONDITIONS OF SUPERVISED RELEASE

As part of your supervised release, you must comply with
the following standard conditions of supervision. These
conditions are imposed because they establish the basic
expectations for your behavior while on supervision and
identify the minimum tools needed by probation officers to
keep informed, report to the court about, and bring about
improvements in your conduct and condition.
1. You must report to the probation office in the federal
judicial district where you are authorized to reside
within 72 hours of your release from imprisonment,
unless the probation officer instructs you to report
to a different probation office or within a different
time frame.
2. After initially reporting to the probation office, you
will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must report
to the probation officer as instructed.
3. You must not knowingly leave the federal judicial
district where you are authorized to reside without
first getting permission from the court or the
probation officer.
4. You must answer truthfully the questions asked by
your probation officer.

39a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 7 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

5. You must live at a place approved by the probation
officer. If you plan to change where you live or
anything about your living arrangements (such as
the people you live with), you must notify the
probation officer at least 10 days before the change.
If notifying the probation officer in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at
any time at your home or elsewhere, and you must
permit the probation officer to take any items
prohibited by the conditions of your supervision that
he or she observes in plain view.
7. You must work full time (at least 30 hours per week)
at a lawful type of employment, unless the probation
officer excuses you from doing so. If you do not have
full-time employment you must try to find full-time
employment, unless the probation officer excuses
you from doing so. If you plan to change where you
work or anything about your work (such as your
position or your job responsibilities), you must notify
the probation officer at least 10 days before the
change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated
circumstances, you must notify the probation officer
within 72 hours of becoming aware of a change or
expected change.
8. You must not communicate or interact with someone
you know is engaged in criminal activity. If you
know someone has been convicted of a felony, you
must not knowingly communicate or interact with

40a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 8 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

that person without first getting the permission of
the probation officer.
9. If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours
10. You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was designed,
or was modified for, the specific purpose of causing
bodily injury or death to another person such as
nunchakus or tasers).
11. You must not act or make any agreement with a law
enforcement agency to act as a confidential human
source or informant without first getting the
permission of the court.
12. If the probation officer determines that you pose a
risk to another person (including an organization),
the probation officer may require you to notify the
person about the risk and you must comply with that
instruction. The probation officer may contact the
person and confirm that you have notified the
person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by
the court and has provided me with a written copy of this judgment
containing these conditions. I understand additional information
regarding these conditions is available at the www.uscourts.gov.
Defendant’s Signature _______________________ Date_______________

41a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 9 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

SPECIAL CONDITIONS OF SUPERVISED RELEASE
_X_

It is a condition of supervision that the defendant
shall provide the probation officer access to any
requested financial information.

_X_

It is a condition of supervision that the defendant
shall not incur any new credit charges or open
additional lines of credit without the approval of the
probation officer, unless the defendant is in
compliance with the payment schedule.

_X_

The defendant shall participate in a mental health
treatment program and follow the rules and
regulations of that program. The probation officer,
in consultation with the treatment provider, shall
supervise participation in the program (provider,
location, modality, duration, intensity, etc.). The
defendant shall pay the costs of such treatment if
financially able.

_X_

The defendant shall take all mental health
medications that are prescribed by the treating
physician. If the medical professional prescribes a
change in medication which you do not want to take,
you must immediately notify the probation officer so
that the court can promptly hold a hearing.

42a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 10 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

ADDITIONAL CONDITIONS OF SUPERVISED
RELEASE
NOT APPLICABLE

43a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 11 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

CRIMINAL MONETARY PENALTIES/SCHEDULE

The defendant shall pay the following total criminal
monetary penalties in accordance with the schedule of
payments set forth. Unless the Court has expressly
ordered otherwise, if this judgment imposes
imprisonment, payment of criminal monetary penalties is
due during the period of imprisonment. Criminal
Monetary Penalties, except those payments made through
Federal Bureau of Prisons’ Inmate Financial
Responsibility Program shall be paid through the Clerk,
United States District Court, 525 Magoffin Avenue, Room
105, El Paso, Texas 79901.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties
imposed.
TOTALS:
Assessment

$100.00

Restitution

$1,800.00

Fine

$.00

AVAA Assessment*

$.00

JVTA Assessment**

$.00

44a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 12 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

Special Assessment
It is ordered that the defendant shall pay to the United
States a special assessment of $100.00.
Fine
The fine is waived because of the defendant’s inability to
pay.
Restitution
The defendant shall pay restitution in the amount of
$1,800.00 through the Clerk, U.S. District Court, for
distribution to the payee(s). Payment of this sum shall
begin immediately.
The Court directs the United States Probation Office to
provide personal identifier information of victims by
submitting a "reference list'' under seal Pursuant to EGovernment Act of 2002'' to the District Clerk within ten
(10) days after the criminal Judgment has been entered.
☐ Joint and Several
Case Number
EP-19-CR-630-KC(1)
Defendant and Co-Defendant Names
JUSTIN
(including defendant number)
HAGGERTY
Total Amount

$1,800.00

45a
AO 245B (Rev. TXW 09/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment – Page 13 of 13

JUSTIN HAGGERTY
EP:19-CR-00630-KC(1)

Joint and Several Amount

$.00

Corresponding Payee, if appropriate
Ysleta Del sur Pueblo
119 South Old Pueblo Dr.
Ysleta Del sur Pueblo, TX 79907
If the defendant makes a partial payment, each payee shall receive an
approximately proportioned payment, unless specified otherwise in the
priority order or percentage payment column above. However, pursuant
to 18 U.S.C. § 3664(i), all non-federal victims must be paid before the
United States is paid.
If the fine is not paid, the court may sentence the defendant to any
sentence which might have been originally imposed. See 18 U.S.C. §3614.
The defendant shall pay interest on any fine or restitution of more than
$2,500.00, unless the fine or restitution is paid in full before the fifteenth
day after the date of the judgment, pursuant to 18 U.S.C. §3612(f). All
payment options may be subject to penalties for delinquency and default,
pursuant to 18 U.S.C. §3612(g).
Payments shall be applied in the following order: (1) assessment, (2)
restitution principal, (3) restitution interest, (4) AVAA assessment, (5)
fine principal, (6) fine interest, (7) community restitution, (8) JVTA
assessment, (9) penalties, and (10) costs, including cost of prosecution
and court costs.
Findings for the total amount of losses are required under Chapters
109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.
*Amy, Vicky, and Andy Child Pornography Victim Assistance Act of
2018, Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.

